WAIVER

Supreme Court, U.S.
FILED

AUG 14 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

19-186

Leslie Moore Mira

Argus Media, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
D Please enter my appearance as Counsel of Record for all respondents.

0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s): .

I am a member of the Bar of the Supreme Court of the United States.
111 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.

A/0MA-

Signature
Date.

August 14, 2019

(Type or print) Name

Jeanne C. Barenholtz
D Mr.

Firm

[1] Mrs.

D Miss

Garvey Schubert Barer

Address

100 Wall Street, 20th Floor

City & State
Phone

D Ms.

New York, New York

212-9654513

Zip
Email

10005

jbarenholtz@gsblaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE, BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Leslie Moore Mira, Pro Se (By First Class Mail)

RECEIVED
AUG 2 0 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

NEW YORK OFFICE

OTHER OFFICES

100 wall street

seattle, washington

twentieth floor

portland, oregon

new york, new york 10005-3708
TEL

212 431 8700

FAX

washington, d.c.

212 334 1278

beijing, china
GSBLAW.COM

C G;Iu C3 E Air C3 AN g

A PROFESSIONAL SERVICE CORPORATION

Please reply to JENNIFER SY LOPEZ
jsylopez@gsblaw.cotn
TEL EXT 4523

August 14, 2019
VIA FEDERAL EXPRESS
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re:

Leslie Moore Mira v. Argus Media, et al.; Supreme Court Case No. 19-186

Ladies and/or Gentlemen:
Enclosed herewith is an original and copy of the Waiver for filing with this Court. Kindly datestamp a copy of same and return to our office via the enclosed SASE envelope provided for your
convenience.
Please do not hesitate to call me or Jeanne Barenholtz, Esq. at (212) 965-4513 if you have any
questions. Thank you for your attention to this matter.
Re s ectfully,

JSL/bh
Enclosures

Je ifer Sy pez
Li gation Paralegal

RECEIVED
cc:

Leslie Moore Mira, Pro Se
With Enclosure

GSB:10458924.1

AUG 2 0 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

